No. _________
IN THE SUPREME COURT OF THE UNITED STATES

JASON ANDREW CAVAZOS,

Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

PETITION FOR A WRIT OF CERTIORARI
APPENDIX

Christopher Curtis
Assistant Federal Public Defender
Federal Public Defender's Office
Northern District of Texas
819 Taylor Street, Room 9A10
Fort Worth, TX 76102
(817) 978-2753
Chris_Curtis@fd.org

APPENDIX TABLE OF CONTENTS
APPENDIX

DOCUMENT DESCRIPTION

APPENDIX PAGE RANGE

App. A

Judgment and Opinion of the United
1-4
States Court of Appeals for the Fifth Circuit.
United States of America v. Jason Andrew Cavazos,
No. 20-10169

App. B

Judgment and Sentence of the United States
District Court for the Northern District of Texas.
United States of America v. Cavazos,
USDC No. 5:19-CR-99-H-BQ

1-8

APPENDIX A

Case: 20-10169

Document: 00515667924

Page: 1

Date Filed: 12/09/2020

United States Court of Appeals
for the Fifth Circuit
FILED

United States Court of Appeals
Fifth Circuit

___________

December 9, 2020

No. 20-10169
Summary Calendar
___________

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Jason Andrew Cavazos,
Defendant—Appellant.
____________________________
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 5:19-CR-99-1
____________________________
Before Jones, Barksdale, and Stewart, Circuit Judges.
JUDGMENT
This cause was considered on the record on appeal and the briefs on
file.
IT IS ORDERED and ADJUDGED that the judgment of the
District Court is AFFIRMED.

App. A 001

Case: 20-10169

Document: 00515667834

Page: 1

Date Filed: 12/09/2020

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED

December 9, 2020

No. 20-10169
Summary Calendar

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Jason Andrew Cavazos,
Defendant—Appellant.
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 5:19-CR-99-1
Before Jones, Barksdale, and Stewart, Circuit Judges.
Per Curiam:*
Jason Andrew Cavazos pleaded guilty to enticement of a minor, in
violation of 18 U.S.C. § 2422(b). He was sentenced to, inter alia, a withinSentencing Guidelines sentence of 151-months’ imprisonment. Cavazos
challenges the district court’s application of a two-level Guidelines’

*

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

App. A 002

Case: 20-10169

Document: 00515667834

Page: 2

Date Filed: 12/09/2020

No. 20-10169

enhancement for his commission of a sex act in relation to his enticement
offense. His claim fails.
As Cavazos concedes, he did not preserve the enhancement issue in
district court. Review is only for plain error. E.g., United States v. Broussard,
669 F.3d 537, 546 (5th Cir. 2012). Under that standard, Cavazos must show
a forfeited plain error (clear or obvious error, rather than one subject to
reasonable dispute) that affected his substantial rights. Puckett v. United
States, 556 U.S. 129, 135 (2009). If he makes that showing, we have the
discretion to correct the reversible plain error, but generally should do so only
if it “seriously affect[s] the fairness, integrity or public reputation of judicial
proceedings”. Id.
Guideline § 2G1.3(b)(4) provides a two-level enhancement for a sex
offense involving a minor if “the offense involved the commission of a sex
act or sexual contact”. U.S.S.G. § 2G1.3(b)(4). An “offense” is defined as
“the offense of conviction and all relevant conduct under [Guideline]
§ 1B1.3”. U.S.S.G. § 1B1.1 cmt. n.1(I) (emphasis added). Importantly,
Guideline § 1B1.3(a) defines “relevant conduct” as including, inter alia, “all
acts and omissions . . . that occurred . . . in preparation for [the offense of
conviction]”. U.S.S.G. § 1B1.3(a). Accordingly, a two-level Guidelines
enhancement is added when defendant’s sex offense involving a minor
(offense of conviction) is in conjunction with a preparatory sexual act or
sexual contact (relevant conduct).
The district court adopted the presentence investigation report and
applied the Guideline 2G1.3(b)(4) enhancement, noting Cavazos (32-yearold registered sex offender) and Jane Doe (13-years-old) had engaged in oral
sex the same month as his subsequent offense of enticement. Cavazos
contends: the court erred by finding the prior sexual encounter to be relevant
conduct “in preparation for” his subsequent enticement offense.

2

App. A 003

Case: 20-10169

Document: 00515667834

Page: 3

Date Filed: 12/09/2020

No. 20-10169

Cavazos fails to show the requisite clear or obvious error. In that
regard, it is neither clear nor obvious that the phrase “in preparation for”, as
used in Guideline 1B1.3(a)(1), must be interpreted to preclude Cavazos’ prior
sexual act with Doe. See Broussard, 669 F.3d at 553. He cites no binding
precedent, and there is no relevant authority holding that a prior sex act
cannot be preparatory for a subsequent enticement offense involving the
same victim and offender. See United States v. Gonzalez, 792 F.3d 534, 538
(5th Cir. 2015) (noting that “lack of binding authority is often dispositive in
the plain-error context”). Moreover, there is a reasonable dispute whether
the prior sex act constituted “grooming behavior” for the purposes of further
sexual abuse. See generally United States v. Howard, 766 F.3d 414, 424–25
(5th Cir. 2014) (discussing the tactic of “grooming” minors to entice illegal
sex).
AFFIRMED.

3

App. A 004

APPENDIX B

Case 5:19-cr-00099-H-BQ Document 33 Filed 02/06/20

Page 1 of 8 PageID 82

UNrrBo SrerEs Dlsrrucr Counr
NORTHERN DISTRICT OF TEXAS LUBBOCK DIVISION

LINITED STATES OF AMERICA

JUDGMENT IN A CRIMINAL CASE

s
s
5

I

JASON ANDREW CAVAZOS

Case Number: 5:

19-CR-00099-H-BQ(l )
USM Number: 59167-177
David E. Sloan

s

I

Defendant s Attomev

5

THE DEFENDANT:

x
tr
tr
tr

pleaded guilty to count(s)

Count 1 of the indictment filed August 14,2019

pleaded guilty to count(s) before a U.S. Magistrate
Judge, which was accepted by the court.
pleaded nolo contendere to count(s) which was
accepted by the court
was found guilty on count(s) after a plea ofnot guilty

The defendant is adjudicated guilty ofthese offenses:

Title & Section / Nat[re of Offense
l8 U.S.C. $ 2422(b) Enticement OfA Minor

Offense Ended

Count

t2/26/2018

I

The defendant is sentenced as provided in pages 2 through 8 ofthis judgment. The sentence is imposed pursuant to the Sentencing

Reform Act of 1984.

! The defendant has been found not guilty on count(s)
E Count(s) tr is n Remaining count(s) are dismissed on the motion ofthe United States
It is ordered that the defendant must notiR/ the United States attomey for this district within 30 days ofany change ofname,
residence, or mailing ad&ess until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If
ordered to pay restitution, the defendant must notiry the court and United States aftomey of material changes in economic
circumstances.

Februa

6 2020

Date of lmpos

Srgn

J

n

ofJudgment

fJudge

es Wesley Hendrix
nited States Distrielt Judqe
ame and Title

ofludge

February 6, 2020
Datc

App. B 001

Case 5:19-cr-00099-H-BQ Document 33 Filed 02/06/20
AO 2458 (Rev. tXN 9/19) Judgmert in

DEFENDANT:

CASENUMBER:

a

Page 2 of 8 PageID 83

Criminal Case

Judgment-Page2of8

JASONANDREWCAVAZOS
5:19-CR-00099-H-BQ(l)

IMPRISONMENT
The defendant is hereby committed to the custody ofthe United States Bureau ofPrisons to be imprisoned for a total term of:
151 months as to count I .

X

The court makes the following recommendations to the Bueau ofPrisons: Incarceration at FCI Seagoville, Texas.

The Court recommends that, while incarcerated, the defendant receive appropriate substance-abuse and mental-health treatment, but
the Court did not lengthen the defendant's prison term to promote rehabilitation. See Tapiav. Llnited Stqtes,564 U.S.3l9 (2011).

X
tr

The defendant is remanded to the custody ofthe United States Marshal.
The defendant shall surrender to the United States Marshal for this district:

!

at

as

n p...

a.m

on

notified by the United States Marshal

The defendant shall surrender for service ofsentence at the institution designated by the Bureau ofPrisons:

!
tr
tr

before 2 p.m. on
as

notified by the United States Marshal.

as

notified by the Probation or Pretrial Services Office.

RETURN
I have executed thisjudgment as follows:

to

Defendant delivered on

at

with

a

certified copy ofthisjudgment.

UNITED STATI]S MAI{SHAL

Bv
DtsPUTY TINITED STATES MARSHAL

App. B 002

Case 5:19-cr-00099-H-BQ Document 33 Filed 02/06/20
AO 2458 (Rev.

l XN

Page 3 of 8 PageID 84

9/19) Judgment in a Criminal Case

DEFENDANT:

CASENUMBER:

Judgmcnt-Page3ol8

JASONANDREWCAVAZOS
5:19-CR-00099-H-BQ(l)

SUPERVISED RELEASE
Upon release fiom imprisonment, the defendant shall be on supervised release for a term of

:

twenty (20) y€ars.

MANDATORY CONDITIONS

L
2.
3.

You must not commit another federal" state or local crime.
You must not unlawfully possess a contlolled substance.
You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days ofrelease
from imprisonment and at least two periodic drug tests thereafter, as determined by the court.

!

The above drug testing condition is suspended, based on the court's determination that you pose a low risk of future
substance abuse. (check if applicable)

4. tr

You must make restitution in accordance with l8 U.S.C. $$ 3663 and 36634 or any other statute authorizing a sentence
of restitution. (check if applicable)

5. X
6. X

You must cooperate in the collection ofDNA as directed by the probation offrcer. (check if applicable)

7. E

You must comply with the requirements ofthe Sex Offender Registration and Notification Act (34 U.S.C. g 20901, et
seq.) as directed by the probation otlcer, the Bureau of Prisons, or any state sex offender registration agency in which
you reside, work, are a student, or were convicted of a qualifying offense. (check if applicable)
You must participate in an approved program for domestic violence. (check if opplicable\

You must comply with the standard condilions that have been adopted by this court as well as with any additional
conditions on the attached page.

App. B 003

Case 5:19-cr-00099-H-BQ Document 33 Filed 02/06/20
AO 2458 (Rcv. TXN 9/19) Judgment in

DEFENDANT:

CASENUMBER:

a

Criminal Case

Page 4 of 8 PageID 85
Judgment - Page 4 of 8

JASONANDREWCAVAZOS
5:19-CR-00099-H-BQ(1)

STANDARD CONDITIONS OF SUPERVISION
As part ofyour superyised release, you must comply with the following standard conditions of supervision. These conditions are
imposed because they establish the basic expectations for your behavior while on supervision and identii, the minimum tools needed
by probation officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.

l. You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours ofyour
release from imprisonment, unless the probation officer instructs you to report to a different probation oflice or within a different time
frame.

2. After initially reporting to the probation office, you will receive instructions {iom the court or the probation officer about how and
when you must report to the probation officer, and you must report to the probation officer as instructed.
3. You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission fiom
the court or the probation oflicer.
4. You must answer truthfully the questions asked by your probation officer.
5. You must live at a place approved by the probation officer. Ifyou plan to change where you live or anything about your living
arrangements (such as the people you live with), you must noti8/ the probation officer at least l0 days before the change. If notifuing
the probation officer in advance is not possible due to unanticipated circumstances, you must notiry the probation officer within 72
hours of becoming aware ofa change or expected change.
6. You must allow the probation oflcer to visit you at any time at your home or elsewhere, and you must permit the probation officer
to take any items prohibited by the conditions ofyour supervision that he or she observes in plain view.
7. You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you ltom
doing so. Ifyou do not have full-time employment you must try to find full-time employment, unless the probation officer excuses
you from doing so, Ifyou plan to change where you work or anything about your work (such as your position or yourjob
responsibilities), you must notiry the probation officer at least l0 days before the change. If notirying the probation officer at least l0
days in advance is not possible due to unanticipated circumstances, you must notiry the probation officer within 72 hours of
becoming aware ofa change or expected change.
8. You must not communicate or interact with someone you know is engaged in criminal activity. Ifyou know someone has been
convicted of a felony, you must not knowingly communicate or interact with that person without first getting the permission ofthe
probalion officer.
9. Ifyou are arrested or questioned by a law enforcement officer, you must notiry the probation officer within 72 hours.
10. You must not own, possess, or have access to a firearm, ammunition, destructive deyice, or dangerous \ryeapon (i.e., anything that
was designed, or was modifled for, the specific purpose ofcausing bodily injury or death to another person such as nunchakus or
tasers).

1L You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informanl
without first getting the permission ofthe court.
12. Ifthe probation officer determines that you pose a risk to another person (including an organization), the probation officer may
require you to notiry the person about the risk and you must comply with that instruction. The probation officer may contact the
person and conhrm that you haye notified the person about the risk.
13. You must follow the instructions ofthe probation officer related to the conditions ofsupervision.

U.S. Probation OIIice Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a
w tten copy ofthisjudgment containing these conditions. I understand additional information regarding these
conditions is available at \\a\$'.1xn uscourts. ov.
Defendant's Signature

Date

App. B 004

Case 5:19-cr-00099-H-BQ Document 33 Filed 02/06/20
AO 2458 (Rev. TXN 9/19) Judgment in

DEFENDANT:
CASE NUMBER:

a

Page 5 of 8 PageID 86

Criminal Case

Judgment-Page5of8

JASONANDREWCAVAZOS
5: I 9-CR-00099-H-BQ(

1

)

SPECIAL CONDITIONS OF SUPERVISION
1

2

The defendant shall abstain from the use ofalcohol and all other intoxicants during the term ofsupervision.
The defendant shall have no unsupervised contact with persons under the age of 18, nor shall the defendant
loiter near places where children may frequently congregate. The defendant shall neither seek nor maintain

employment or volunteer work at any location and/or activity where persons under the age of 18
congregate and the defendant shall not date or befriend anyone who has children under the age of 18,
without prior permission ofthe probation officer.
3

The defendant shall not possess, have access to, or utilize a computer or Internet connection device,
including, but not limited to Xbox, PlayStation, Nintendo, or similar device, without permission of the
probation officer. This condition requires preapproval for categories ofcomputer or Intemet access or use;
it does not require separate pre-use approval every time the defendant accesses or uses a computer or the
Intemet.

4

The defendant shall neither possess nor have under his control any sexually oriented, or sexually
stimulating materials of adults or children. The defendant shall not patronize any place where such
material is available.

5

The defendant shall participate in sex offender treatment services, as directed by the probation officer,
until successfully discharged. These services may include psycho-physiological testing (i.e. clinical
polygraph, plethysmograph, and the ABEL screen) to monitor the defendant's compliance, treatment
progress, and risk to the community. The defendant shall contribute to the costs of services rendered
(copayment) at a rate of at least $25.00 per month.

App. B 005

Case 5:19-cr-00099-H-BQ Document 33 Filed 02/06/20
AO 24511 (Rcv. TXN 9/19) Judgmenr in

DEFENDANT:
CASE NUMBER:

a

Page 6 of 8 PageID 87

Criminal Casc

Judgment-Page6of8

JASON ANDREW CAVAZOS
s:

l9-CR-00099-H-BQ(l )

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penallies under the schedule ofpayments page
Assessment
$100.00

TOTALS

tr
tr

AVAA Assessment*

$.00

$.00

until

JVTA Assessment**

An Amended Judgment in a Criminal Case (AO245C) willbe eltered

determination.

The defendant must make restitution (including community restitution) to the following payees in the amount listed below.

$ 3664(i), all nonfederal

n

Fine

$.00

The determination ofrestitution is deferred
aft er such

Ifthe defendant makes a partial payment.

tr
tr

Restitution

each payee shall receive an approximately proportioned payment. However, pursuant

to l8 U.S.C

victims must be paid before the United States is paid.

Restitution amount ordered pursuant to plea agreement $
The defendant must pay interest on restitution and a fine ofmore than $2,500, unless lhe restitution or fine is paid in full before
the fifteenth day after the date ofthejudgment, pursuant to l8 U.S.C. $ 3612(0. All ofthe payment options on the schedule of
payments page may be subject to penalties for delinquency and default, pwsuant to 18 U.S.C. g 3612(g).
The court determined that the defendant does not have the ability to pay interest and it is ordered that:

E
E

the interest requirement is waived for
the interest requirement for

the

the E fine
f] fine

* Amy, Vicky, and Andy Chjld Pomography Victim Assistance Act of2018,
** Justice for Victims ofTrafficking Act of20l5, Pub. L. No. I 14-22

Pub. L.

tr
tr

restitution
restitution is modified as follows:

No. lI5-299.

** * Findings for the total amount of losses are required under Chaptem 109,4, I I0, I l0A, and I l3A ofTitle l8 for offenses committed on or affer
September 13, 1994, but before April23,1996.

App. B 006

Case 5:19-cr-00099-H-BQ Document 33 Filed 02/06/20

Page 7 of 8 PageID 88

AO 2458 (Rev. TXN 9/19) Judgment in a Criminal Case

DEFENDANT:

CASENUMBER:

Judgment--Page7of8

JASONANDREWCAVAZOS
5:19-CR-00099-H-BQ(l)

SCHEDULE OF PAYMENTS
Having assessed the defendant's ability to pay, payment ofthe total criminal monetary penalties is due as follows:

A E

Lump sum payments of $

E

not later

tr

in

B !
c tr

due immediately, balance due

than

,

accordance tr C,

or

tr D,

Payment to begin immediately (may be combined

with tr

(e.g., weekly, monthly,

Payment in equal

tr

E,

or tr

C,

!

F below; or

D,

quqrterv installments of

$

or

tr

_

F below); or

over a period

of

or

D E

Payment in equal20 (e.g., weekly, monthly, quarterly) installments

-(e.g., months or yearr, to commence _

of$

over a period

of

(e.g., 30 or 60 days) after release from

imprisonment to a term of supervision; or

E E

-(e'g.,montllsoryears),tocommence-(e.g',30or60days)afterthedateofthisjudgment;
Payment during the term ofsupervised release will commence within
(e.g., 30 or 60 days) after release
from imprisonment. The court will set the payment plan based on an assessment ofthe defendant's abitity to pay at that

time; or
F

X

Special instructions regarding the payment ofcriminal monetary penalties:

It is ordered that the Defendant shall pay to th€ United States a special assessment of 5100,00 for Count l, which
shall be due immediately. Said special assessment shall b€ paid to the Clerk, U.S. District Court.
Unless the court has expressly ordered otherwise, ifthis judgment imposes imprisonment, payment of criminal monetary penalties is
due during imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau ofPrisons'
lnmate Financial Responsibility Program, are made to the clerk ofthe court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

E

Joint and Several
See above for Defendant and Co-Defendant Names and Case Numbers flrclrding defendant number), Total Amount, Joint and
Several Amount, and corresponding payee, if appropriate.

tr
tr
tr

The defendant shall pay the cost ofprosecution.
The defendant shall pay the following court cost(s):
The defendant shall forfeit the defendant's interest in the following property to the United States

Payments shall be applied in the following order: (l) assessment, (2) restitution principal, (3) restitution interest, (4) AVAA
assessment, (5) fure principal, (6) fine interest, (7) community restitution, (8) JVTA assessment, (9) penalties, and (10) costs,

including cost ofprosecution and court costs.

App. B 007

Case 5:19-cr-00099-H-BQ Document 33 Filed 02/06/20
AO 245B (Rev. TXN 9/19) Judgment in

DEFENDANT:

CASENUMBER:

a

Page 8 of 8 PageID 89

Criminal Casc

Judgment-Page8of8

JASONANDREWCAVAZOS
5:19-CR-00099-H-BQ(1)

ADDITIONAL FORFEITED PROPERTY
Pursuant to 21 U.S.C. $ 853(a), it is hereby ordered that defendant's interest in the following property is
condemned and fbrfeited to the United States: a ZTE cellular telephone, model number N9560, serial number
320283920420.

App. B 008

